ES, IG-99-026, Implementation of NASA's Integrated Financial Management Project
IMPLEMENTATION OF NASA'S INTEGRATED
FINANCIAL MANAGEMENT PROJECT
IG-99-026
Executive Summary
Introduction
Office of Management and Budget Circular A-127, "Financial Management
Systems," requires Federal agencies to maintain a single, integrated
financial management system.  To fully comply with the circular, NASA
established the Integrated Financial Management Project (IFMP), which will
also facilitate compliance with other statutory and regulatory requirements
including the Federal Financial Management Improvement Act of 1996.  See
Appendix B for the applicable requirements.
On September 18, 1997, NASA awarded a fixed-price contract, valued at
$186 million, to KPMG Peat Marwick (KPMG) to provide
commercial-off-the-shelf (COTS) software for, and to implement NASA-wide,
the IFMP.  The contract required that the IFMP be implemented at all NASA
Centers by July 1, 1999.  On February 26, 1998, KPMG notified NASA that it
would not meet key elements of the contract delivery schedule.  NASA issued
a contract modification that recognized a revised delivery schedule and
allowed additional costs of up to $7.1 million for an extended delivery
schedule.
On December 1, 1998, KPMG made an incomplete delivery of the IFMP system
to the IFMP Integrated Test Facility (IITF) - the first major milestone
under the revised delivery schedule.  The incomplete delivery of IFMP
required further contract modification, and NASA was unable to determine
the extent to which the incomplete delivery would impact the revised
delivery schedule.
Objectives
The overall objective was to evaluate contractor performance on the IFMP.
Specifically, we determined whether:
the IFMP contractor's performance was adequate, and
NASA's oversight of the IFMP contractor was adequate.
See Appendix A for details on our audit scope and methodology.
Results of Audit
From its inception, the IFMP contract experienced significant performance
problems.  In 18 months since the contract award, the project has experienced
a delivery schedule slip of 11 months with additional schedule slippage
pending, and the COTS software that KPMG promised to be available at
contract award is still incomplete.  The delay in implementing IFMP will
prevent NASA from meeting Federal financial management system requirements
and will result in material costs to the agency.  Additionally, the IFMP as
delivered, may not fulfill Federal financial management system requirements
in areas such as agency reports, standard general ledger, receipts
management, and payment management and will require additional testing by
NASA to ensure that those requirements are met.
Since contract award, NASA has taken steps to ensure the success of
IFMP.  The Agency has implemented a contractor surveillance plan to better
monitor KPMG's performance on IFMP.  NASA has also prepared a contingency
plan to better prepare itself in the case of further problems with
contractor performance.
Recommendations
The IFMP Director should:
Take necessary steps to ensure that NASA receives reasonable
consideration due to KPMG's nonperformance including requesting the
IFMP contracting officer (CO) to perform an assessment of the cost
impact to NASA for use in evaluating proposed consideration.
Perform validation testing of the IFMP core financial module to
ensure that it meets Joint Financial Management Improvement Program
(JFMIP)(1) requirements as contracted for, and implement compensating
controls for those JFMIP requirements that will not be met.
Document the contract file regarding NASA's decisions concerning
the contractor's non-performance.
Management's Response
Management concurred with the recommendations and has taken actions to
correct identified weaknesses.  The complete text of the response is in
Appendix F.
Evaluation of Management's Response
Management's corrective actions planned or completed are responsive to the
recommendations.
FOOTNOTE
1.  The JFMIP is a joint and
cooperative undertaking of the U.S. Department of Treasury, the General
Accounting Office, the Office of Management and Budget, and the Office of
Personnal Management, working in cooperation with each other and other
agencies to improve financial management practices in Government.